use my Account (whether or not I have told the Credit Union
that such person will be using my Account), with or without
the Card, PIN, that I will pay for any Purchases or Advances
made by such person(s) on my Account and any finance or
other charges imposed on those Purchases and Advances,
even if the amount exceeds my permission.
If I have authorized someone to use my Account and I want
to terminate that person’s access, I agree that I must notify
you in writing; if possible, enclosing the Card(s) used by that
person, cut in two. Once I have notified you that this individual
is no longer authorized, even if the card is not recovered, my
liability ceases for future charges made to the Account. I may
request you to cancel all cards and establish a new Account
for me. If I request you to terminate the use of my PIN by
another person, you will cancel my PIN and issue a new PIN.
P. Transfer of Account. I cannot transfer or assign my Account
to any other person or Trust.
Q. Change of Address. I will advise you promptly if I change
my mailing address. All written notices and statements from
you to me will be considered given when placed in the United
States mail, postage prepaid, and addressed to me at my
current address as it appears in your records.
R. Irregular Payments. You may accept late payments or
partial payments, or checks, drafts or money orders marked
“Payment in Full” without losing any of your rights under this
Agreement.
S Security. Other than for a Share Secured Account, no
security interest is taken in my property to secure payment.
However, collateral securing other loans with you may also
secure this loan, except for my principal dwelling and
household goods.
T. Amendments. You may change any part of this Agreement at
any time, as long as, when applicable, you give me advance
written notice as required by law. Any change in terms will
apply to my outstanding balance existing as of the effective
change date as well as to all charges made after that date.
U. Cancellation. I can cancel my Account at any time by
returning to you my Card, along with a letter requesting that
you cancel my Account. You may cancel this Agreement at
any time. However, my obligation under this Agreement and
any charges made under it prior to cancellation will
continue to apply until I have paid you all the money I owe on
the Account.
V. Skip Payment. At your option, you may not require me to
make a Minimum Payment during certain designated billing
cycles. If I do not make my Minimum Payment as provided
in the Agreement, I understand you will continue to apply
Finance Charges to my Account. Beginning with the billing
cycle following a skip payment, I agree that all of the

provisions of this Agreement shall apply.
W. Automatic Payment Option. If I have requested this optional
service, you will automatically transfer the amount of the
payment requested from my designated Credit Union
account. The payment option can be designated by me as
one of the following: (1) Full Payment; (2) Minimum Periodic
Payment; or, (3) a specified dollar amount. If the amount I
have designated for payment is greater than the amount of
available funds being on deposit on the day of the transfer
the transfer has been made, the transfer will be reversed. If I
make additional payments during the billing cycle, the
automatic transfer may still take place on the statement
closing date. You may cancel this service if the transfers are
not honored because of insufficient and/or unavailable funds
in my deposit account and you will notify me of this action.
I may cancel this service at any time, however I understand
that one more transfer(s) may occur if I do not provide
sufficient notice for the Credit Union to input the change.
X. Liability for Unauthorized Use. I may be liable for the
unauthorized use of my Card. I will not be liable for any
unauthorized use that occurs after I notify Payment Systems
for Credit Unions orally, of the loss, theft or possible
unauthorized use. In any case, my liability will not exceed
$50.00. I may report a lost or stolen Card by calling 1-(800)
449-7728.

If I think there is an error on my statement, I should write to
you at:
Provident Credit Union
P.O. Box 8007
Redwood City, CA 94063-0907
Or I may also contact you on the web: providentcu.org
In my letter, I will give you the following information:
• Account information: My name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If I think there is an error on my bill,
describe what I believe is wrong and why I believe it is a
mistake.
I must contact you:
• Within 60 days after the error appeared on my statement.
• At least 3 business days before an automated payment is
scheduled, if I want to stop payment on the amount I think
is wrong.
I must notify you of any potential errors in writing [or
electronically]. I may call you, but if I do you are not required
to investigate any potential errors and I may have to pay the
amount in question.
What Will Happen After You Receive My Letter

Y. Illegal Transactions. I understand that I am not permitted to
use my Account for any illegal transaction, such as unlawful
gambling. The legality of any transaction will not affect my
liability for the balances I have incurred on my account.

When you receive my letter, you must do two things:

Z Lost and Stolen Cards. If I report my Card lost or stolen as
provided in paragraph Z, then recover or find my Card and fail
to notify you immediately of the recovery at 1-800 449-7728, I
agree to pay you the amount of any reward previously paid by
you to a retail merchant to recover the Card I reported as lost
or stolen.

2. Within 90 days of receiving my letter, you must either
correct the error or explain to me why you believe the bill
is correct. While you investigate whether or not there has
been an error:

AA.Other Provisions. Each of us who signed the Application and/
or requested the Account or use the Account is individually
and jointly obligated for all payments due under this Agreement. The Account has been applied for, considered, approved and issued in the State of California and all extensions
of credit are being made from the State of California. I agree
that this Agreement shall be governed by and interpreted under California and Federal Law. If any part of this Agreement
is not valid, all other parts will remain enforceable.
My Billing Rights - Keep This Notice for Future Use
This notice contains important information about my rights
and your responsibilities under the Fair Credit Billing Act.
What To Do If I find A Mistake On My Statement

1. Within 30 days of receiving my letter, you must tell me that
you received my letter. You will also tell me if you have
already corrected the error.

• You cannot try to collect the amount in question, or report
me as delinquent on that amount.
• The charge in question may remain on my statement, and
you may continue to charge me interest on that amount.
• While I do not have to pay the amount in question, I am
responsible for the remainder of the balance.
• You can apply any unpaid amount against my credit limit.
After you finish your investigation, one of two things will
happen:
If you made a mistake: I will not have to pay the amount in
question or any interest or other fees related to the amount.
If you do not believe there was a mistake: I will have to pay the
amount in question, along with applicable interest and fees.
You will send me a statement of the amount I owe and the
date payment is due. You may then report me as delinquent if

I do not pay the amount you think I owe.
If I receive your explanation but still believe my bill is wrong,
I must write to you within 10 days telling you that I still refuse
to pay. If I do so, you cannot report me as delinquent without
also reporting that I am still questioning your bill. You must tell
me the name of anyone to whom you reported me as
delinquent, and you must let those organizations know when
the matter has been settled between us.
If you do not follow all of the rules above, I do not have to pay
the first $50 of the amount I question even if my bill is correct.
My Rights If I Am Dissatisfied With My Credit Card Purchases
If I have a problem with the quality of property or services
that I purchased with my credit card, and I have tried in good
faith to correct the problem with the merchant, I may have the
right not to pay the remaining amount due on the property or
services.
To use this right, all of the following must be true:
1. I must have made the purchase in my home state or, if
not within my home state, within 100 miles of my current
mailing address; and, the purchase price must have been
more than $50.00. (Note: Neither of these are necessary if
my purchase was based on an advertisement you mailed to
me, or if you own the company that sold me the goods or
services).
2. I must have used my credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses my credit card account do not
qualify.
3. I must not yet have fully paid for the purchase.
If all of the criteria above are met and I am still dissatisfied with
the purchase, I must contact you in writing at:
Provident Credit Union
P.O. Box 8007
Redwood City, CA 94063-0903
While you investigate, the same rules apply to the disputed
amount as discussed above. After you finish your
investigation, you will tell me your decision. At that point, if you
think I owe an amount and I do not pay, you may report me as
delinquent.

VISA Variable Credit Card Agreement, Overdraft
Protection Agreement, and Truth In Lending
Disclosure Statement
This is your Cardholder Agreement with Provident Credit Union
which outlines the terms to which you agree by requesting,
receiving, signing, using or authorizing another to sign and use,
any Credit Card, PIN, Credit Account, or other credit devices
issued to you here under. This Agreement covers your Provident,
College and Share Secured VISA credit cards. Please read this
agreement and keep it for your records.
In this Agreement, the word “Account” means the Credit Card
Account opened pursuant to this Agreement, including use of
your Card or PIN. “Card” means one or more cards and “PIN”
means Personal Identification Number issued with respect to the
Account. The words “I,” “me,” “my” which also mean “we,” “us”
and “our,” if more than one person, mean the person or persons
who use or authorize the use of the VISA credit card or sign an
application for a VISA credit card. The words “you,” “your,” and
“yours” mean Provident Credit Union or its authorized agents.
A. How to Use this Account. I can purchase or lease goods and
services (“Purchases”) from a merchant up to my maximum
credit limit by presenting my VISA credit card (“Card”) and
signing a sales slip for the amount of the Purchase. I may also
use my card:
1. To obtain cash loans (“Cash Advances”) up to my maximum
credit limit from financial institutions that accept a VISA
credit card;
2. By making withdrawals with this Card at an automated
teller machine;
3. By granting merchants telephonic authorization to charge
products or services to my account;
4. By using my Card to charge phone calls; or,
5. By issuing checks or drafts or the accrual of any charges
against my checking account with Provident Credit Union
in excess of its balance (if overdraft feature is available).
Advances made by automatic transfer of funds directly into
my pre-designated checking account(s) may be in multiples
of $100.00 or in the amount of the overdraft depending on
which option is available.

© 3/16 PCU ID 11305

M-117987

6. By making transfers of available funds to another credit
union account through the credit union’s Touch Tone Teller
or Account Manager systems, or through direct contact
with a credit union representative.
B. Maximum Credit Limit. You will provide me with notice of
my maximum credit limit on my monthly billing statement,
and I agree you may change my limit at any time. I agree
never to use my Card when the use will exceed my maximum
credit limit. I also agree that you are not obligated to extend
to me credit for an amount that would make my outstanding
balance exceed my maximum credit limit, or for any amount
if my outstanding balance is already over the maximum credit
limit. Any increases in my maximum credit limit I request may
require that I make a written application for your approval. I
will pay any amounts which exceed my maximum credit limit
upon demand. You may re-evaluate my financial condition if I
request a higher credit limit, or at any other time, and this may
include obtaining a current credit bureau report or screening,
and/or asking me for current financial information. Based on
such a review, you may immediately increase, reduce or even
revoke my Account without prior written notice.
C. Monthly Statement. If I have an outstanding debit or credit
New Balance of $1.00 or more, or if there is any Finance
Charge imposed during a billing cycle, you will send me
a statement. I agree to pay you for all Purchases, Cash
Advances, fees and charges, if any, and Finance Charges on
my Account, all payable in United States dollars. Payment
checks must be drawn on a financial institution or other entity
domiciled in the United States.
Posting of my payment will be delayed if I present you a check
drawn on a non United States domiciled financial institution
or entity. The payment will not be credited to my Account
until the funds have been collected in United States dollars.
I agree to allow the Credit Union to debit my account for any
collection and processing fees associated with handling this
payment.
D. Finance Charges. You will impose Finance Charges as follows:
Purchases
1. A Finance Charge is imposed on purchases from the date
of posting to my Account to the date of repayment.
2. For each billing cycle:
a) You multiply the Monthly Periodic Rate times the Average
Daily Balance of Purchases. The Average Daily Balance
is the sum of the daily unpaid balances of purchases on
each day of the billing cycle covered by my current billing
statement divided by the number of days in the billing cycle.
Such unpaid balances are determined by deducting payments and credits applied against such unpaid balances
and by adding new purchases, unpaid finance charges,

fees and other charges, in each case, as of the date posted
to my Account.

divided by the number of days in the billing cycle. Such
unpaid balances are determined by deducting payments
and credits applied against such unpaid balances and by
adding unpaid finance charges, in each case, as of the date
posted to my Account and by adding new cash advances
as of the date of the transaction.

b) You multiply the Monthly Periodic Rate times the Average
Daily Balance of Previous Billing Cycle Purchases. The
Average Daily Balance of Previous Billing Cycle Purchases
is the sum of the unpaid balances of purchases itemized
on my last billing statement on each day of the billing cycle
covered by my last billing statement divided by the number
of days in the billing cycle. Such unpaid balances are determined by deducting payments and credits applied against
such unpaid balances and by adding new purchases,
unpaid finance charges, fees and other charges, in each
case, as of the date posted to my Account.

c) You may also charge a one-time Finance Charge for cash
advances equal to 3% of the amount of each new cash
advances, with a minimum Finance Charge of $10.00 for
advances at financial institutions, casinos, ATMs, wire
funds, transfers to other credit union accounts, over drafts
to your Credit Union check account or Western Union
transfers.

c) You add the amounts determined under (a) and (b) to obtain
the Finance Charge on purchases.

d) You add the amounts determined under a), b) and c) to
obtain the Finance Charge on Cash Advances.

3. A Finance Charge is not imposed on:

3. All forms of cash advances, including the use of over drafts
to your Credit Union checking account, regardless of the
purpose for which used, shall be subject to the Finance
Charges as set forth above.

a) New purchases posted during a billing cycle if: (a) I paid the
New Balance shown on the billing statement covering the
preceding billing cycle by the Payment Due Date shown on
the billing statement or such New Balance was zero and (b)
I pay the New Balance shown on the billing statement itemizing the new purchases by the Payment Due Date shown
on that billing statement.
b) Old purchases previously posted for a billing cycle during
which I pay the New Balance shown on the billing
statement covering the preceding billing cycle by the
Payment Due Date shown on that billing statement.
Cash Advances
1. A Finance Charge is imposed on cash advances as from
the date of transaction to the date of repayment.
2. For each billing cycle:
a) You multiply the Monthly Periodic Rate times the
Average Daily Balance of Cash Advances. The Average
Daily Balance is the sum of the daily unpaid balances of
cash advances on each day of the billing cycle covered by
my current billing statement divided by the number of days
in the billing cycle. Such unpaid balances are determined
by deducting payments and credits applied against such
unpaid balances and by adding unpaid finance charges,
in each case, as of the date posted to my Account and by
adding new cash advances as of the date of the
transaction.
b) You multiply the Monthly Periodic Rate times the Average
Daily Balance of Previous Billing Cycle Cash Advances.
The Average Daily Balance of Previous Billing Cycle Cash
Advances is the sum of the unpaid balances of cash
advances itemized on my last billing statement on each
day of the billing cycle covered by my last billing statement

E. Monthly Periodic Finance Charge, Monthly Periodic Rate,
Annual Percentage Rate (APR), and Penalty Annual
Percentage Rate.
Index
APR Margin
Initial APR		

Index (Prime
Prime Rate)

Initial
Periodic Rate

9.65%6.40%Per WSJ*
(APR is
18.00%
14.75%		
determined by
			
Margin + Prime
			Rate^)
The Monthly Periodic Rate and corresponding Annual
Percentage Rate used in calculating the Monthly Periodic
Finance Charge may increase or decrease during the term
of this Agreement. Any such change will be based on an
increase or decrease in the “Prime Rate” as published in The
*Wall Street Journal. In the event that the Index ceases to be
published, changes in my Annual Percentage Rate will be
related to a comparable Index. You may waive an increase in
my Annual Percentage Rate when such an increase can be
made, but such waiver shall not be construed as a waiver of
your right to increase the Annual Percentage Rate at a future
date when entitled to do so.
My Annual Percentage Rate is subject to change monthly
on the first day of every month following one full billing cycle
after an increase or decrease in the Index. These dates shall
be known as “Adjustment Dates.” For example, if the Index
changes anytime in the month of January, my new Annual
Percentage Rate will go into effect on the first day of March
and will be based on the Index as of the last day of January.
Decreases in my Annual Percentage Rate in accordance
with the terms of this Agreement are mandatory. Increases in

my Annual Percentage Rate can be made at your discretion
subject to the terms of this Agreement. If the Annual
Percentage Rate increases or decreases, the Finance Charge
will increase or decrease. Each change in the Annual
Percentage Rate and Monthly Periodic Rate which is the
result of an increase or decrease in the index will apply to any
balance outstanding on the effective date of such change as
well as to future Credit Purchases and Cash Advances.
The initial periodic rate used in calculating my Monthly
Periodic Finance Charge is set forth in the “Rate and Fee
Table” I received under separate cover and which is made
part of this Agreement. The Monthly Periodic Finance Charge
for each billing cycle will be calculated by multiplying the
Average Daily Balance (described below) of my Account for
the billing cycle by the Monthly Periodic Rate. The Monthly
Periodic Rate is determined by dividing the Annual
Percentage Rate by 12 and will change when the Annual
Percentage Rate changes. ^We add 6.4% to the Prime rate
to determine the current lowest Daily Periodic Rate used in
calculating the Finance Charge is 0.02644%, which currently
corresponds to an Annual Percentage Rate of 9.65%. We add
14.75% to the Prime to determine the highest Daily Periodic
Rate used in calculating the Finance Charge is 0.04932%,
which corresponds to an Annual Percentage Rate of 18.00%.
Penalty Pricing: Interest Rate Adjustment Event. An Interest
Rate Adjustment Event will occur whenever my Account is
two Minimum Payments Past Due. You will change my interest rate to a rate of 18.00% Annual Percentage Rate which is
a Monthly Periodic Rate of 1.50% on the first day of the billing
cycle following the cycle that was two Minimum Payments
Past Due. The Maximum Penalty Annual Percentage Rate is
18.00%. Then after I make 6 consecutive minimum payments
to my account, you will change the interest rate to my original
rate (the Annual Percentage Rate that was applicable to my
account at the time it was opened and any subsequent modification to this rate). The Monthly Periodic Rate and Annual
Percentage Rate change to the original rate will become
effective the first day of the billing cycle following the 6th
consecutive billing cycle.
An increase in the Annual Percentage Rate will have the effect
of decreasing the portion of any payment applied to reduction
of the principal account balance and may, therefore, increase
the number of minimum payments necessary to pay off the
account.
F. Promotional Programs. From time to time you may offer
special programs based upon the use of my account. Any
such program may offer me an opportunity to receive a lower
Annual Percentage Rate on all or a portion of my balance. I
understand that payments will be applied first to the portion of
my balance with the lowest Annual Percentage Rate however,
if I make a payment in excess of the minimum payment due in

any cycle, the amount of the payment that exceeds the
minimum payment will be applied to the highest Annual
Percentage Rate on the account.
G. Periodic Billing Statements. If I have a balance on my Account
at the end of a billing cycle, you will furnish a periodic billing
statement (normally monthly) itemizing my purchases,
advances and where applicable previous payments.
H. Minimum Payment. I agree to pay each statement by
remitting to you (within 25 days from the date of the billing
statement’s closing date) the required minimum payment due,
which will be the greater of 2.5% of the outstanding balance
on my Account or $25.00. I have the option of making larger
payments on the Account at any time without penalty.
I. Fees and Charges.
1. Late Payment Fee: My Minimum Payment Due will be past
due if it is not received by you on or before the Payment
Due Date shown on each monthly statement. A fee will be
charged to my Account, if at least the Minimum Payment
Due, including unpaid payments, is not received by you
within 15 days after the Payment Due Date.
2. Returned Payment Check Fee: If I make a payment by
check and the check is returned unpaid for any reason, my
Account will be charged $25 for each returned check.
3. Automatic Payment Reversal Fee: If I have elected to have
the payment(s) on my Account automatically deducted from
another credit union account and I fail to maintain sufficient
funds in this account causing my payment to be reversed,
my Account will be charged up to $25.
4. Fee for Documents: If I request a copy of a charge slip or
other document not in connection with a billing error, you
may charge my Account the cost of $25.00 per sale draft
plus $6.00 processing fee.
5. Replacement or Additional Card Fee: If I request an
additional card to replace the card initially issued to me, for
any reason other than the card not being received by me or
a defect in its manufacture, or if I request a card for an
additional user on my account, you may charge my
Account up to $10.00 per card.
J. Charges Made in Foreign Currency. If I incur a charge in a
foreign currency, the charge will be converted by VISA
International into a United States Dollar amount. VISA
International will use the procedures set forth in its Operating
Regulations in effect at the time that the transaction is
processed. Currently those regulations provide that the
currency conversion rate to be used is either a wholesale
market rate or a government mandated rate in effect one
day prior to the processing date. The currency conversion
rate in effect on the processing date may differ for the rate in
effect on the transaction date or on the posting date. I will be

charged a Foreign Transaction Fee equal to 3% of the
transaction amount in U.S. currency.
K. Application of Payments. In accordance with applicable
law, you will choose the order in which any payment will be
applied to my account balances at the time the payment is
made. I agree to make all payments on my account in United
States Dollars. If the payments and credits received by you
within 25 days from the billing date total less than the New
Balance, or if a portion of the New Balance includes cash
or loan advances, the next periodic statement will include a
finance charge which I agree to pay.
L. Events of Default. I will be in default under the Account and
Agreement if any of the following events shall occur: (a) If I fail
to comply with the minimum payment or any other terms or
conditions of this Agreement or on any other obligation I have
or will have with you; (b) if I try to exceed my credit limit
without your permission; (c) if I have made any false or
misleading statements on any credit application submitted
to you; (d) if I should die or become insolvent; (e) if a petition
should be filed or other proceedings should be started under
the Federal Bankruptcy Code, by any authorized signer on the
Account, whether or not you have been listed as a creditor;
(f) if a Receiver should be appointed or a writ or order of
attachment, levy or garnishment should be issued against me
or any of my property, assets or income; or, (g) if you should
consider that any debts due under this Agreement unsafe or
not completely secure or if you should believe, in good faith,
that the chances of my paying or performing all of my
obligations under this Agreement have been impaired.
If default occurs under this Agreement, you may, at your
option, without notice to me, terminate this Agreement,
revoke my right to use the Card, and demand that I pay you
immediately all sums which I owe you. Interest will continue to
accrue at the contract rate after default.
M. Collection Costs. I agree that if you assign my Account to
an independent collection agency, or file a lawsuit to collect
amounts I owe you, that I will pay all costs, disbursements
and reasonable attorneys’ fees incurred by you in legal
proceedings to collect or enforce my indebtedness in the
event of delinquency by me or in the event of a breach of any
obligation by me, whether or not a lawsuit is filed.
N. Ownership of Card. Any Card or other credit instrument
which you supply to me is your property and must be
returned to you immediately upon demand or upon notice of
cancellation of my Account.
O. Use of Card and Account by Others. If I so request, you may
issue cards not only to me, but also to others who will only be
authorized users of the Account. Such additional cards may
be imprinted either with my name or with the names of the
authorized user(s). I agree that if I permit another person to

